I;

No.

18-3019. 18-3033

filed
FEB 2 3 2021
f

il

IN THE
SUPREME COURT OF THE UNITED STATES

ELIU LORENZANA-CORDON
(Your Name)

_ PETITIONER

vs.
UNITED STATES OF AMERICA

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

United States Court of Appeals, District of Columbia
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Eliu Lorenzana-Cordon - #33578-016
(Your Name)
USP Victorville, P.O. Box 3900
(Address)
Adelanto, CA 92301
(City, State, Zip Code)

(Phone Number)

QUESTION(S) PRESENTED

Did the District Court abuse it's discretion by denying the motion for a new trial
without taking into consideration that the document of extradition that showed
Petitioner was not provided with proper notice prior to be extradited in violation of
the treatie between the United States and Guatemala of 1903 and 1940?

LIST OF PARTIES

|X] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

TABLE OF CONTENTS
1

OPINIONS BELOW
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A
APPENDIX B
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

TABLE OF AUTHORITIES CITED
CASES

STATUTES AND RULES

OTHER

PAGE NUMBER

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix _A
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
The opinion of the United States district court appears at Appendix B
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix _____ to the petition and is
[ ] reported at
I or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was 1 -31-2020
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_______
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix _A_____
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

,

HONORABLE SUPREME COURT: First and foremost, I thank God for
getting me to this place.
The United States Supreme Court was created to invoke the lower courts to
honor the Constitutional and basic rights of the people, and the treatment of
extradition between the United States, and foreign countries, in this instance, The
Republic of Guatemala.

SUMMARY OF CASE
On the 2nd day of April, 2009, a federal grand jury returned with charges
against the accused Waldemar and Eliu Lorenzana-Cordon, and thirteen other
defendants whom were charged with conspiracy to manufacture, distribute and
import cocaine to the United States between March, 1996, until 2009. Afterwards,
the defendants were then extradited to the United States from Guatemala. On the
22nd of March, 2016, after a five-week trial, the verdict was guilty for the accused
defendants.
The appeal is necessary to correct any decision that deprives one of his
constitutional and unalienable right, to include the bilateral treatment of extradition
by virtue of the Fifth Amendment to justify any charge(s) presented and brought
before a grand jury. This is an extremely grave issue and cannot be treated as a
mere disparity, and then later discarded as if the error is non-offensive, as did the
l

District Court, and the Appellate Court. The court abused its discretion by denying
the motion for a new trial, or the prescription of the offenses, without taking into
the account that the document of my extradition, because it clearly is a warning
that we were made defendant’s without proper notice, but also the charges that the
government mentioned they’ve been cured since 1999 until 2003; by not taking
into consideration the documents of my extradition violated my guaranty under the
treaty between USA and Guatemala of 1903 and 1940. The Special Doctrine and
Fifth Amendment.

BILATERAL TREATY OF EXTRADITION
The most serious and respectable agreement between any form of treaty is
based on a promise of respect (mutually) to the sovereignty of the Republic of
Guatemala. The treaty of 1903 and the complementary of 1940 between USA and
Guatemala regarding the extradition of fugitive from justice.

ARTICLE III
The person who is brought forth in virtue of the present agreement is not
going to be adjudicated by another, or punished by a crime that has been prescribed
for this conviction committed before this extradition, especially when the purpose

2

of the extradition is not the charges utilized upon having been brought to another
country.

SPECIAL DOCTRINE
It’s established that once a person is extradited s/he can be processed only
for those charges in which s/he was given for extradition. United States v. Sensi,
879 F.2d 888, 892 (DC Cir. 1989); United States v. Lopesierra-Gutierrez, 708
F.3d 193, 206 (DC Cir. 2013).

FIFTH AMENDMENT
Grants the accused the right to be tried only for the charges s/he has been
placed on due notice for. United States v. Sitzmann, 714 F.Supp. 3d 96, 122 (DC
Cir. 2014).
Keep in mind that the accusations presented to Guatemala speaks of issues
in which derived from 1996 until 2009. The accusations that were presented to
Guatemala had the direct purpose of extradition.

EXTRADITION
The Guatemalan Tribunal clearly stated: The charges raised against the
Guatemalan citizen, as mentioned before, had from 1999-2003, cannot waive the
3

extradition. It’s totally different from the one the US presented. It’s clear that I
should not be accused of anything other than why I was given to the United States
of America, which is the organization of Herrera Garcia N:03-331, which was
concluded in 2003.
The District Court abused its discretion when they tried this case as a
constructed case within its borders which is not the case. This case implicates a
jurisdictional suspension of Article III of 1903, and the US Treaty of 1940 with the
Republic of Guatemala for the extradition of fugitives from the law.
Both the District and Appellate Courts have violated our unalienable and
constitutional safeguarded rights when they ignored the Formal Extradition Order
for which we were released into their care . . . from Guatemala.
From the beginning of the Judicial process, the District Court has dictated
decisions based on what the US has presented to Guatemala, without taking into
consideration the true purpose of the extradition. Let’s be clear, the Third Tribunal
of Guatemala gave us up for extradition based on the Herrera Garcia organization
that States clearly the years 1999-2003, out of the dates mentioned in the
indictment, is a direct violation of the constructive amendment to the accusation
for which Guatemala turned us over; ergo, an abuse of discretion from the District
court.

4

When the District Court ignored the Extradition document and accepted the
testimony of witnesses outside of the Herrera Garcia organization, and they spoke
of things outside of the time indicated by the Statute of Limitation for what
Guatemala gave me which is between 1999-2003, that’s when the Herrera
organization was concluded, automatically contradicted the Fifth and Sixth
Amendment in regard to the extradition order it speaks for itself.
During trial the government presented to the witnesses as proof of the
following people: Montejo Merida (3/7/2016 @ 0905); Sebastian Cotton (3/7/2016
@ 2:04 PM); David Andrade (3/14/2016); Mallory Chacon (3/15/2016).
The testimony of these four witnesses relate to issues outside the dates for
which the extradition order was prescribed, and therefore, can clearly be seen the
abuse of discretion of the Court, and they’re attempting to justify both known and
unknown issues not brought before the grant jury, ergo, turning a blind eye to the
truth of the matter.
The government began the trial with the testimony of Byron Linarez, the
accountant of the Herrera Garcia organization, who testified from February 23-26,
2016. His testimony clearly articulated that the Herrera Garcia organization
concluded all operations since 2003. The second material witness was Otto
Herrera, who testified from March 1-3, 2016 (Vol. 6, Appx. 1936). His testimony
clearly pointed out that the organization has been concluded since 2003.
5

The extradition order explicitly states that the charges that stemmed from
1999-2003 differs from the current reasons of extradition. (See Extradition Order:
Appendix A.) The document of extradition clearly shows that we were given over
to the USA for the alleged ties to the Herrera Garcia organization for things in
which transpired between 1999-2003.

THE SUPREME COURT STATES IN STIRONE, ID EN. 217
“The depravation ofa right that is so basic is too noticeable to be treated
just as a simple variance and to ignore it as an inoffensive error. ” Berger v.
United States, 295 US 78. The purpose for an accused to be processed by a grand
jury is to limit the risk of the charges coming from a group of his peers, that the
charges should being independently direct from a judge or prosecutor.
Since ex parte Bain, 121 US was decided in 1887, the rule has been that
after an accusation has come back from a grand jury his charges cannot be
modified or changed except and only except by a grand jury. In this case, the
Court ordered that some specific accusations and relevant information that the
grand jury had ordered to be illuminated from the accusations so that Bain could e
convicted without proof of the particular accusation. Sustaining that this could not
be done. Judge Miller, in the name of the Court said, “[Ujnder the mandate of a
Court, to change part of a formal accusation to adopt to their own notions about
6

what could have been, or what the grandjury could have probably done if their
attention could have been solicitated to the changes. The mot importantfact is the
accusation/accused has the right to be before a grandjury and requires a trial for
a detained person to be accused of the crime and without the after said, the
constitution says, ‘Nobody can be obligated to answer ’ it could person its value
and most definitely destroy it.” 121 US 110.

THE COURT CELEBRATES ON BAIN
After modification of the accusation, the grand jury presented that it was no
longer the same accusation.
“Any other doctrine would determine that the citizens rights were destined to
be protected by constitutional disposition under the authority of the court or
prosecuting attorney. ”121 US 13; Stirone v. United States, 361 US 212, 215-16
(1960).

ATTACHED AS APPENDIX B
MY GUARANTEES OF PRESIDENTIAL TREATY
The variance between the extradition order, and proof offered at trial, is
enough to prove the constructive modification of the accusations in what the court
permitted facts and names out of the scope of extradition, for what Guatemala gave
me for extradition with specific dates from 1999-2003. Everything outside of these
7

dates is a violation to my due process. With the documentation of my extradition
and my guarantees, I can prove that there were constructive amendments, the
violation of doctrine of special rights of extradition, the presentation of the crime
and multiple conspiracies.
If I was extradited for specific charges from 1999-2003, and the Herrera
Garcia organization ended in 2003, and my accusation was in March 2009, it was
more than five years that the law permits.
This case presents the following to this honorable Supreme Court to make
the standards clear of the “extradition,” to the government and the accusations by
the grand jury that these accusations constructively violate extradition treaty that
Guatemala grants.

CONCLUSION
For reasons mentioned, Mr. Lorenzana-Cordon asks and supplicates
respectfully, that this Honorable Supreme Court emit a certiorari to review the
mandates and decisions of the District court and Court of Appeals, and not to take

8

for granted the documentation with the guarantees of extradition with instructions
that are being ignored or set aside and that we could get back our freedom.

Without Prejudice,
/'

Eliu LorenzarmCordon

Dated:

,2021.

/

9

